Memorandum from the Office of the Inspector General



November 30, 2005

Randy P. Trusley, WT 4B-K

REQUEST FOR FINAL ACTION – AUDIT 2005-061F – REVIEW OF
INTRAGOVERNMENTAL ACTIVITY AND BALANCES



Attached is the subject final report for your review and final action. Your written
comments, which addressed your management decision and actions planned or taken,
have been included in the report. Please notify us when final action is complete.

If you have any questions or wish to discuss our findings, please contact D. Nikolaus
Jordan, Auditor, at (865) 632-2135 or Louise B. Beck, Manager of Financial and
Operational Audits, at (865) 632-2622. We appreciate the courtesy and cooperation
received from your staff during the audit.




Ben R. Wagner
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

DNJ:JP
Attachment
cc (Attachment):
     Russell Dotson, WT 5C-K
     Andrew W. Holmes, WT 4B-K
     Tom D. Kilgore, ET 12A-K
     Richard W. Moore, ET 4C-K
     Jeffrey Price, WT 5C-K
     Michael E. Rescoe, ET 12A-K
     Ellen Robinson, ET 12A-K
     Gregory A. Stucky, WT 5C-K
     Donna J. Terzak, WT 5C-K
     OIG File No. 2005-061F
Office of the Inspector General   Audit Report
                                  To the Vice President and
                                  Controller




REVIEW OF
INTRAGOVERNMENTAL
ACTIVITY AND BALANCES




Auditor                                        Audit 2005-061F
D. Nikolaus Jordan                            November 1, 2005
Office of the Inspector General                                                        Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................i

BACKGROUND ................................................................................1

OBJECTIVES, SCOPE, AND METHODOLOGY ......................1

FINDINGS ..........................................................................................2
    INACCURACIES DUE TO DATA-ENTRY ERRORS .......................3

    INACCURACIES DUE TO POST-CLOSING ADJUSTING
    ENTRIES .........................................................................................3

    DUE DILIGENCE EXERCISED IN RECONCILING MATERIAL
    DIFFERENCES ...............................................................................3

RECOMMENDATIONS ...................................................................4


APPENDIX
MEMORANDUM DATED NOVEMBER 10, 2005, FROM RANDY
TRUSLEY TO BEN R. WAGNER




Audit 2005-061F
Office of the Inspector General                                Audit Report


EXECUTIVE SUMMARY
Each year federal agencies, including the Tennessee Valley Authority
(TVA), must submit audited financial information for the compilation of
the Financial Report of the United States Government (FR). As part of
the requirements, agencies must submit intragovernmental balance
information quarterly by trading partner (TP). It is expected agencies
will work with their TPs to reconcile any material difference in the
balances reported.

The Chief Financial Officer is responsible for the proper accounting,
presentation, and reporting of TVA's financial information for the FR.
The Inspector General (IG) is responsible for performing agreed-upon
procedures annually to the intragovernmental balance information,
pursuant to requirements set forth in the Treasury Financial Manual –
Volume I, Part 2, Chapter 4700, to assist the U.S. Government
Accountability Office in the audit of the FR.

To facilitate year-end reporting by TVA and the performance of the
agreed-upon procedures by the IG, we reviewed intragovernmental
balance information for the third quarter for fiscal year 2005.

The objectives of our audit were to determine whether (1) amounts
reported by TVA in the Intragovernmental Reporting and Analysis
System (IRAS) agreed with its third-quarter financial statements; and
(2) TVA's third-quarter balances agreed with the reciprocal balances
reported by its TPs and, if not, whether attempts were made to resolve
material differences with each TP.

In summary, we found:

•   Intragovernmental balance information as reported generally
    agreed with the third-quarter financial statements. However, we
    identified some inaccuracies in the data submitted in the IRAS,
    indicating the need for better controls to ensure data reported is
    accurate and representative of balances in TVA's financial
    statements.
•   While there were immaterial and material differences in the
    balances reported by TVA and those reported by its TPs, the
    Controller organization made reasonable effort to explain and
    resolve the material differences.

We recommend the Controller take steps to ensure (1) data is
independently reviewed for accuracy before it is submitted in the
IRAS, including verifying data reported by TVA agrees with balances
Audit 2005-061F                                                     Page i
Office of the Inspector General                               Audit Report


recorded in TVA's general ledger system and reported in the financial
statements for the relative period; and (2) the organization continues
to work with TVA TPs and exercise due diligence to resolve material
differences in the balances reported.

In commenting on a draft of this report, management concurred with
our findings and recommendations and plans to take appropriate
steps to implement control procedures. The Controller stated in his
comments that due to the cutoff date for the intragovernmental
submission being earlier than TVA's quarterly reporting date, there will
continue to be the possibility for post-closing adjustments to be made
to TVA's financial statements that cannot be updated in the
intragovernmental data submission. See the Appendix for
management's complete response. We concur with management's
planned actions.




Audit 2005-061F                                                    Page ii
Office of the Inspector General                              Audit Report


BACKGROUND
In the normal course of federal government operations, federal
agencies and departments purchase and sell goods and services
between themselves. These types of activities between federal
agencies and departments are called intragovernmental transactions.
Each year federal agencies, including the Tennessee Valley Authority
(TVA), must submit audited financial information for the compilation of
the Financial Report of the United States Government (FR). As part of
the requirements, agencies must submit intragovernmental balance
information quarterly by trading partner (TP). It is expected agencies
will work with their TPs to reconcile any material difference in the
reported balances in order to not overstate the federal government's
financial statements.

The Chief Financial Officer (CFO) is responsible for the proper
accounting, presentation, and reporting of TVA's financial information
for the FR. The Inspector General (IG) is responsible for performing
agreed-upon procedures annually to the intragovernmental balance
information, pursuant to requirements set forth in the Treasury
Financial Manual – Volume I, Part 2, Chapter 4700 (TFM), to assist the
U.S. Government Accountability Office in the audit of the FR.

The Fiscal Year (FY) 2005 IG Agreed-Upon Procedures for Federal
Intragovernmental Activity and Balances from the TFM were the basis
for this audit.

To facilitate year-end reporting by TVA and the performance of the
agreed-upon procedures by the IG, we reviewed intragovernmental
balance information for the third quarter of FY 2005.


OBJECTIVES, SCOPE, AND METHODOLOGY
The objectives of our audit were to determine whether (1) amounts
reported by TVA in the Intragovernmental Reporting and Analysis
System (IRAS) agreed with its third-quarter financial statements; and
(2) TVA's third-quarter balances agreed with the reciprocal balances
reported by its TPs and, if not, whether attempts were made to resolve
material differences with each TP.

To accomplish the objectives, we:

•   Obtained and reviewed policies, procedures, rules, and regulations
    related to intragovernmental activity and balances;

Audit 2005-061F                                                  Page 1
Office of the Inspector General                                Audit Report


•   Attended a teleconference given by the Intragovernmental
    Eliminations Task Force to gain better knowledge of
    topics/issues/best practices to help resolve intragovernmental issues
    and concerns;
•   Interviewed representatives of TVA's Controller organization to
    better understand the process and identify control deficiencies over
    the process for reporting intragovernmental activity and balances;
•   Validated the IRAS document, 3rd Quarter Intragovernmental
    Activity Detail Report by Trading Partner for FY 2005, by tracing
    amounts to the Controller's Schedule of Intragovernmental
    Accounts, which represents the information submitted by TVA in the
    IRAS, and by tracing the totals from the Schedule of
    Intragovernmental Accounts to the third-quarter financial statements;
•   Compared the third-quarter balances reported by TVA and the
    corresponding balances reported by each TP in the IRAS; and
•   Reviewed correspondence with each TP where amounts reported by
    TVA in the IRAS differed materially from the corresponding balance
    reported by the TP to determine whether reasonable effort was
    made by TVA to explain and resolve the material difference.

The review covered intragovernmental activity and balances for the
third quarter of FY 2005. This audit was performed in accordance with
generally accepted government auditing standards.


FINDINGS
In summary, we found:

•   Intragovernmental balance information as reported generally
    agreed with the third-quarter financial statements. However, we
    identified some inaccuracies in the data submitted in the IRAS,
    indicating the need for better controls to ensure data reported is
    accurate and representative of balances in TVA's financial
    statements.
•   While there were immaterial and material differences in the
    balances reported by TVA and those reported by its TPs, the
    Controller organization made reasonable effort to explain and
    resolve the material differences, as determined by the IRAS and
    reported in the Material Differences Report: 3rd Quarter FY 2005.




Audit 2005-061F                                                    Page 2
Office of the Inspector General                                Audit Report


INACCURACIES DUE TO DATA-ENTRY ERRORS
We identified four data-entry errors in the data submitted by TVA in
the IRAS. Three errors from data being pulled from the incorrect
column in the trial balance resulted in reporting a net overstatement of
$6.9 million. The fourth error was a keying error that understated the
amount reported by $10,000. While the errors did not result in
material differences from the corresponding balances reported by the
TPs in these instances, they indicated a control weakness in data
accuracy.

INACCURACIES DUE TO POST-CLOSING ADJUSTING
ENTRIES

The Controller organization submitted TVA's third-quarter
intragovernmental activity and balances information in the IRAS by the
cut-off date, July 25, as required by the Intragovernmental
Reconciliation Resources and Initiatives' Intragovernmental Tentative
Key Dates. This information corresponded to the July 25th version of
TVA's third-quarter trial balance. However, a subsequent adjustment
in the general ledger system resulted in a net difference of $0.6 million
in two balances reported by TVA in the IRAS and amounts reported in
TVA's third-quarter financial statements. While the balances reported
did not materially differ from those reported by the corresponding TPs,
they affected the accuracy and reliability of data reported by TVA.

In our review of the intragovernmental reporting process, we did not
find evidence of supervisory review and approval of data prior to
submission in the IRAS.

DUE DILIGENCE EXERCISED IN RECONCILING
MATERIAL DIFFERENCES
The Material Differences Report: 3rd Quarter FY 2005 showed
differences exceeding the IRAS-determined materiality threshold in
balances reported by TVA and those reported by three TPs (see table
below). According to CFO staff, the difference in the Department of
Labor (DOL) balances was due to the use of different actuaries and
different assumptions to derive estimates supporting the balances for
each agency. While this explanation is plausible, whether it accounts
for the full difference was not determinable. The difference in the
Department of Energy (DOE) balances was due to an error by DOE in
the reporting of its balances in the IRAS. The difference is expected to
be resolved by DOE in its fourth quarter IRAS reporting. The
difference in the Department of Defense (DOD) balances could not be
explained; however, we determined TVA made reasonable effort to
Audit 2005-061F                                                    Page 3
Office of the Inspector General                                      Audit Report


contact DOD and provide details of the account balances reported by
TVA and obtain explanation to resolve the difference in the balances
reported by each agency. As of the end of our fieldwork, DOD had not
offered explanation for the difference or confirmed its balances to TVA.
 16     DOL/Pension       Benefit     $49,862,367   $39,524,274   $10,338,093
        Benefit           Program
        Guaranty          Costs/
        Corporation       Revenues
 89     DOE               Buy/Sell/   $57,611,329   $47,517,420   $10,093,909
                          Costs/
                          Revenues
 97     Office of the     Buy/Sell/   $46,203,298   $1,117,950    $45,085,348
        Secretary of      Costs/
        Defense –         Revenues
        Defense
        Agencies


RECOMMENDATIONS
We recommend the Controller take steps to ensure (1) data is
independently reviewed for accuracy before it is submitted in the
IRAS, including verifying data reported by TVA agrees with balances
recorded in TVA's general ledger system and reported in the financial
statements for the relative period; and (2) the organization continues
to work with TVA TPs and exercise due diligence to resolve material
differences in the balances reported.

Management's Response – In commenting on a draft of this report,
management concurred with our findings and recommendations and plans
to take appropriate steps to implement control procedures, as follows:

•     Controller organization will implement procedures to document
      independent reviews and approvals of intragovernmental data prior
      to final submission.
•     Controller organization will continue its efforts to resolve
      differences with TPs as they arise.

The Controller stated in his comments that due to the cutoff date for
the intragovernmental submission being earlier than TVA's quarterly
reporting date, there will continue to be the possibility for post-closing
adjustments to be made to TVA's financial statements that cannot be
updated in the intragovernmental data submission. See the Appendix
for management's complete response.

Auditor's Response – We concur with management's planned
actions.


Audit 2005-061F                                                          Page 4
APPENDIX
Page 1 of 1
